                   u.s. DEPARTMENT OF COMMERCE
                                                                       c       ~                    i'f
                             Office of Inspector General               ~~()    ~
                                                                              oS'1-~TES o'i
                                                                                              #'~




                     ECONOMIC DEVELOPMENT
                            ADMINISTRATION

                       Miami Area Economic Development
                                            Service, Inc.
                                       Miami, Oklahoma
                                    Revolving Loan Fund
                          EDA Grant No. 08-39~O2952.01

                            Audit Report No. ATL-14299-1-0001/September         2001




                                                PUBLIC
                                                RELEASE
                                       Office of Audits, Atlanta Regional Office




~~::~     ,.
'1.. {.
     !
 '. h,.        1
     . u.s. Department of Commerce                                                                                                                                                                           Audit Report ATL-14299-1-0001

       Office of Inspector General                                                                                                                                                                                          Sel21ember 2001


                                                                 TABLE OF CONTENTS
                                                                                                                                                                                                                                                                       Page

     EXECUTIVE SUMMARY                                                                                                                                                                                             "'"             """"                   ... ......




     INTRODUCTION                                                                                                                                                                                                                                                        1


     PURPOSE AND SCOPE OF AUDIT                                                                                                                                                                                                                                         2


     FINDING AND RECOI\1MENDATION                                    ...                                                                                                                                                 .................                              3


         CORPORATION HAS NOT DEMONSTRATED

         NEED FOR RECAPITALIZATION GRANT...............................................................                                                                                                                                                                 3


            Corporation Has Not Achieved Required Grant                                                                               .
                                                                                                                                                                                                                                                                        ....
            Disbursement    Milestones                                                                                                                                                                                   - '" ..                    . ... - ......      .)




            Loan Applicant Prospects Are Limited                                    ......................................................................                                                                                                              4


            Semiannual Reports Were Not
            Timely Submitted                                                                                                                                     """""''''''''''''''''''''''''''''''''''''                                                              5

            Conclusion                                                                                                                                                                                                                                                  5


            Grantee Response                                                                                                                                                                                                                                            5


            OIG Comments           """""""'"''''''''''''''''''                                                                              ...              """"''''''''''                                                                                             5


            Recommendation                                                                                                                ''''''''''''''''''''''''''''''''''''''''''''''''                                                                              6

.~          Funds to Be Put to Better Use                                  ""''''''''''''''''''''''''''''''''''''''''''''''''''''''                                                                                                 "'"''''''''''                       6

     APPENDIX I - GRANTEE RESPONSE TO DRAFT AUDIT REPORT
u.s. Department of Commerce                                             Audit Report ATL-14299-I-OOOI
Office of Inspector General                                                            Sel2!.f.mber2001

                                   EXECUTIVE SUMMARY

The Miami Area Economic Development Service, Inc. assists existing industry and attracts new
industry in order to increase employment in Miami, Oklahoma and the surrounding area. The
corporation achieves its mission by operating six distinct revolving loan funds (RLF) including
one RLF financed by two grants awarded to the corporation by the Economic Development
Administration. Specifically, in September 1994, EDA awarded the corporation a $300,000 grant
to establish an RLF and, in September 1997,EDA awarded the corporation a $350,000 grant to
recapitalize the RLF.

We performed a financial and compliance audit of the corporation's EDA RLF during May 2001.
Our primary audit objective was to determine the reasons for the corporation's delay in drawing
down and using the RLF recapitalization grant funds to make loans. Our other objectives were to
assess the corporation's continued need for the recapitalization funds and to review the
corporation's compliance with selected EDA administrative requirements.

Our audit disclosed that the corporation:

.	    Has drawn down only $84,750, or about 24 percent, of the $350,000 recapitalization grant
      funds and therefore did not meet EDA's grant disbursement milestones.

.	    Has not requested a grant time extension from EDA for the continued use of the $265,250
      in undisbursed grant funds even though the three-year grant award period ended in
      September 2000.

.	    Has limitedcurrent prospects for loaningthe undisbursedgrant funds and thereforehas not
      demonstrateda definitiveneed for the funds.

.	    Did not timelysubmitsemiannualRLF reports to EDA for the last two semiannualperiods
      because of problemsencounteredin using new EDA-requiredreport software.

We are recommending that EDA's Austin Regional Director immediately terminate the
corporation's RLF recapitalization grant and deobligate the $265,250 in undisbursed grant funds.
In the response to the draft report, corporation officials disagreed with our recommendation that
EDA terminate the recapitalization grant, and responded that they need the grant funds for five
current loan prospects and other possible prospects that may locate in a new city industrial park.
The officials acknowledged that they did not request a grant time extension from EDA, and stated
that they had submitted their two overdue semiannual RLF reports to EDA.

Based on the corporation's response, we deleted the recommendation pertaining to late RLF
reporting. However, the response did not adequately document the corporation's justification for
retaining the recapitalization grant, such as induding an assessment of the likelihood of approving
loans for the five current prospects. The response also did not include a projected time schedule


                                                -1­


                                                                                                  .   "''''''-'''   ~--'-­
       u.s. Department of Commerce                                          Audit Report ATL-14299-1-000I
       Office of Inspector General                                                         September 2001

       for drawing down and disbursing the remaining grant funds, or address the financial impact of
       future loan repayments and grant matching contributions. Because of these uncertainties, we did
       not modify our report findingand recommendation.

       We have summarized the corporation's response to the draft report's finding and
       recommendation, and provided our comments at the end of this report. We have also included
       the corporation's complete response as Appendix 1.




'.,.




                                                     -ll­
u.s. Department of Commerce                                           Audit Report ATL-14299-1-0001
Office of /nsvector General                                                         - Sevtember 2001

                                       INTRODUCTION

The Miami Area Economic Development Service, Inc. is a private non-profit corporation created
in 1985 to provide economic development services to the city of Miami, Oklahoma and the
surrounding area. Currently, the corporation's mission is to assist existing industry and attract
new industry in order to increase employment in the area. The corporation achieves its mission by
operating six distinct revolving loan funds (RLF), including one RLF financed by two grants
awarded to the corporation by the E~onomic Development Administration.

In September 1994, EDA awarded the corporation a $300,000 Long-Term Economic
Deterioration (LTED) grant, No. 08-39-02952, to establish an RLF. The grant was funded under
Title IX of the Public Works and Economic Development Act of 1965, as amended. The grant
required the corporation to contribute $100,000 in matching funds, which brought the RLF' s total
capitalization to $400,000. The RLF was to be used to finance business start-ups and expansions
with the objective of creating new jobs in three northeast Oklahoma counties.

In September 1997, ED A awarded the corporation a $350,000 LTED grant, No. 08-39-02952.01,
to recapitalize, or add funding, to the RLF. The grant required the corporation to contribute
$116,667 in matching funds, which increased the RLF's total capitalization to $866,667. The
recapitalization grant was for the same general purpose as the original grant. At the time of our
May 2001 audit, the corporation had drawn down the entire $300,000 of the original grant but
only $84,750 of the recapitalization grant.

As of March 31, 2001, the corporation had made 11 RLF loans totaling $908,225. Of the 11
loans, 1 had been fully repaid, 1 was in default with an outstanding balance of$103,434, and 9
remained active with total outstanding balances of $441,473. As of that date, the corporation had
$393,856 available for new loans, with none of the funds committed to new loans.

The corporation also administers another EDAfunded RLF under a contract with the city of
Miami. The RLF was established in March 1988, when EDA awarded the city a $500,000 LTED
grant, No. 08-39-02580, to establish an RLF. The grant required $167,000 in matching funds,
bringing the RLF's total capitalization to $667,000. The RLF funds were to be used to finance
business start-ups and expansions in Ottawa County, Oklahoma.




                                                                                                       ._-..­

      us. Department of Commerce                                                 Audit Report ATL-14299-1-0001
      Office of Inspector General                                                               September 2001

                                     PURPOSE AND SCOPE OF AUDIT

      The primary objective of our.hnancial and compliance audit was to determine the reasons for the
      corporation's delay in drawing down and using the EDA RLF recapitalization grant funds to make
      loans. Our other objectives were to assess the corporation's continued need for the grant funds
      and to review the corporation's compliance with selected RLF administrative requirements.

      We performed our audit fieldwork in May 2001 at the corporation's office in Miami, Oklahoma.
      The audit covered the period from the September 30, 1997, recapitalization grant award date
      through March 31,2001. We examined pertinent EDA and corporation RLF records, and
      interviewed agency and grantee officials as deemed necessary.

      We also reviewed the corporation's annual single audit reports for the fiscal years ended
      September 30, 1998, 1999, and 2000. The audits were conducted by an independent certified
      public accounting firm in accordance with Office of Management and Budget Circular A-133.
      The reports disclosed several material internal control weaknesses that have been resolved or are
      in the process of being resolved. We did not rely upon the accounting firm's internal control
      reviews but instead determined that we could better meet our audit objectives through detailed
      substantive testing ofRLF transactions.

      We also did not rely on computer-processed data supplied by either EDA or the corporation as
      the basis for our audit findings and recommendations. Consequently, we did not conduct tests of
      either the reliability of the data or the controls over the computer-based system that produced the
      data.

      Except as disclosed in this report, the results of our tests indicate that, with respect to the items
      tested, the corporation complied in all material respects with applicable federal laws and
      regulations. With respect to items not tested, nothing came to our attention that caused us to
      believe that the corporation had not complied in all material respects with those laws and
      regulations.
',.
      We conducted the audit in accordance with generally accepted government auditing standards,
      and performed it under the authority of the Inspector General Act of 1978, as amended, and
      Department Organization Order 10.13, dated May 22, 1980, as amended.




                                                        -2­

 u.s. Department o/Commerce                                            Audit Report ATL-14299-I-0001
 Office of Ins/Jector General                                                         September 2001

                                FINDING AND RECOMMENDATION

 CORPORATION HAS NOT DEMONSTRATED
 NEED FOR RECAPITALIZATION GRANT

The corporation has drawn down and used only $84,750 of its $350,000 in RLF recapitalization
grant funds. The primary factor responsible for the corporation's delay in using the grant funds is
that the original $300,000 grant and loan repayments have provided most of the needed loan
funds. The three-year recapitalization grant award period ended in September 2000, but the
corporation has not requested a grant time extension ITomEDA. However, even if a time
extension were approved, the corporation's limited loan prospects restrict its ability to use the
$265,250 in undisbursed grant funds. Because the corporation has not demonstrated a definitive
need for the grant funds, we believe that it is in the government's best interest for EDA to
terminate the grant and deobligate the undisbursed funds. In addition, the corporation did not
timely submit its semiannual RLF reports to EDA for the last two semiannual reporting periods
because of problems encountered in using new required report software.

Corporation Has Not Achieved Required
Grant Disbursement Milestones

EDA's RLF Standard Terms and Conditions, Section D.07, and EDA's RLF Administrative
Manual, Section IX.D., contain general requirements for disbursing RLF grants. Loans in the
initial round of lending, which generate drawdowns in the grant disbursement phase, are to be
completed within three years of the grant award. Within the three-year period, at least 50 percent
of both the grant funds and matching share is to be disbursed within 18 months, and 80 percent
within two years. If a grantee does not meet the prescribed grant disbursement milestones,
additional grant funds will not be disbursed unless EDA approves a time schedule extension, or
the grantee meets other specified conditions not present here.

EDA's RLF Administrative Manual, Section IX.E., contains the criteria for EDA to .consider in
granting time extensions. As soon as conditions become known that may materially affect its
ability to meet any of the required disbursement milestones, a grantee must provide EDA a
written request for continued use of grant funds beyond the missed milestone. The extension
request must demonstrate that: (1) the delay was unforeseen or generally beyond the grantee's
control, (2) the need for the RLF still exists, (3) the current or planned use, and anticipated
benefits of the RLF remain consistent with the grantee's economic adjustment strategy and RLF
plan, and (4) achievement of a new proposed time schedule is reasonably possible with no further
delays.

EDA's September 30, 1997, RLF grant award incorporated the disbursement schedule referenced'
above. However, the corporation did not meet any of ED A's three.grant disbursement
milestones. In fact, a,sof September 30, 2000, when all of the recapitalization funds should have
been disbursed, the corporation had drawn down and used only $84,750, or 24 percent, of the


                                               -3­


 .....
      u.s. Department of Commerce                                              Audit Report ATL-14299-1-0001
      Office of Inspector General                                                             September 2001

      $350,000 grant. The corporation made the drawdown in July 1998 to fund a new loan but since
      that date has not drawn down any of the $265,250 in remaining funds.

      The RLF recapitalization grant's three-year award period ended on September 30,2000, without
      the corporation having met EDA's final grant disbursement milestone. Despite this fact, the
      corporation, at the time of our May 2001 audit, had not requested, and EDA had not approved,a .
      grant time extension for the continued use of the $265,250 in undisbursed grant funds.

      According to the corporation's executive director, EDA's grant disbursement milestones were not
      met primarily because the $300,000 original RLF grant and loan repayments have provided most
      of the funds needed for the six new RLF loans made since September 1997. The director cited, as
      a major contributing factor, the fact that the corporation also operates five otherRLFs that each
      have loan funds available. Other contributing factors, according to the director, are the reluctance
      by local financial institutions to make loans where gap financing is needed or their preference to
      make loans independently of federal funding.

      Loan Applicant Prospects Are Limited

      EDA's RLF Administrative Manual, Section IX.E., reflects the statutory requirement that any
      grant funds not disbursed by September 30 of the fifth year afterthe fiscal year of the grant
      award, in this case September 30,2002, will be automatically deobligated. This requirement was
      incorporated into the recapitalization grant agreement.

      The corporation, at the time of our May 200 I audit, had no pending RLF loan commitments or
      loans in process and had identified only one prospective loan applicant. The corporation's
      executive director stated that the prospective applicant is expected to submit a $100,000 loan
      application and that, if the loan is approved, the corporation would have to draw down about
      $50,000 of its undisbursed grant funds. The director stated that there is a high probability that the
      corporation would approve the loan since the prospective applicant is known to be qualified and
      currently has an RLF loan that is almost fully repaid.
.~.
      However, if a $100,000 RLF loan were approved for the prospective applicant, the corporation
      appears to have at least two loan funding alternatives that do not require the use of the
      undisbursed grant funds. The first alternative is to use the current $43,000 in cash in the
      corporation's RLF plus the loan repayments that average about $6,900 per month. The second
      alternative is to fund the loan from the city of Miami RLF that, as of May 2001, had $92,000 in
      cash and monthly loan repayments of about $8,300.

      Because the corporation continues to have only one immediate loan prospect, which does not
      appear to require the use of any undisbursed grant funds, we do not believe that the corporation
      has a definitive need for the recapitalization grant funds. Moreover, even if a grant time extension
      were approved, the corporation's limited loan prospects greatly restrict its ability to use the
      undisbursed grant funds before EDA's September 30, 2002, automatic deobligation date.


                                                      -4­
u.s. Department of Commerce                                             AuditReport ATL-14299-1-0001

Office of Insf)ector General                                                          Sef)tember 2001


Semiannual Reports Were
Not Timely Submitted

ED A's RLF Standard Terms and Conditions, Section F.Ol., and EDA's RLF Administrative
Manual, Section X1.A.2., generally require that grantees submit semiannual reports on their RLF
operations to ED A. However, at the time of our May 2001 audit, the corporation had not
submitted to EDA the semiannual reports due for the periods ended September 30,2000, and
March 31,2001. The corporation's executive director stated that the EDA Austin Regional
Office required that grantees, beginning with the period ended September 30,2000, electronically
transmit their semiannual reports using EDA specified report software. The director stated that
the corporation attempted to electronically transmit its semiannual RLF reports for the two
periods but could not do so because of unresolved problems encountered in using the software.

In the response to the draft report, corporation officials stated that the two late reports had been
submitted but not on the new software as they still were encountering problems with the software.
Although the corporation must continue to resolve its automated reporting problems, we have
deleted the recommendation pertaining to late RLF reporting-

Conclusion

EDA's RLF Standard Terms and Conditions, Section C.1l, provides that EDA may terminate any
grant based on the recipient's failure to comply with grant conditions. Based on the foregoing,
we believe that it is in the government's best interest for ED A to immediately terminate the grant
and deobligate the $265,250 in undisbursed funds.

Grantee Response

Corporation officials disagreed with our recommendation that EDA terminate the recapitalization
grant. The officials stated that the number and amount ofloan requests they receive is cyclical
and unpredictable. They also stated that theycurrently have five loan prospects needing $800,000
in funds but have only $327,000 in available loan funds, excluding the undisbursed grant funds.
The officials further responded that they also need the undisbursed grant funds for other possible
loan prospects that may locate in a new city industrial park. The officials acknowledged that they
did not request a grant time extension from EDA. The corporation's complete response is
included as Appendix 1.

OIG Comments

The corporation's response does not adequately justify the corporation's need for the undisbursed
recapitalization grant funds. Instead, the response simply states that the grant funds are needed to
make loans to five current loan prospects, including four that the corporation identified after our
May 2001 audit. However, the response does not indicate whether the four new prospects are
regarded as serious and qualified prospects who plan to submit RLF loan applications The


                                                -5­

                                                                                                       .   ""U-O"--.....
u.s. Department of Commerce                                          Audit Report ATL-14299-1-0001
Office of Insr;ectorGeneral                                                         See/ember 2001

response also does not include the corporation's assessment of the likelihood of approving loans
for the five current prospects, or a projected time schedule for drawing down and disbursing the
remaining $265,250 in grant mnds. Finally, the response does not address the financial impact of
future monthly revenues generated by loan repayments, and required grant matching contributions
on the corporation's loan plans. Because of these uncertainties, we have not modified our report
finding and reaffirm our recomm~ndation that EDA immediately terminate the recapitalization
grant and deobligate the undisbursed grant funds.                                      .

Recommendation

We recommend that EDA's Austin Regional Director immediately terminate the corporation's

RLF recapitalization grant and deobligate the remaining $265,250 in grant funds.


Funds to Be Put to Better Use

Implementing the above recommendation will allow $265,250 in unneeded grant funds to remain
in the U.S. Treasury and be put to better use.




                                          .9/~/o/
~}nm..L
 .            ahan
Acting Regional Inspector General
                                                Date

   for Audits




                                              -6­


                                                                                                     " --,.-.-.-.
                                                                                                              .
                                                                                                                      APPENDIX I
                                                                                                                       Page 1of2


                     MIAMIAREAECONOMIC   DEVELOPMENT    SERVICE
                                                                    VSn~
               SUITE
     2 NORTWMAIN,  601    (918)          . FAX(918)542.7751
                              542.8405/8406                                                                    MIAMI,OK74354
                                             ..-.
                August 2,2001



                Mr. E. Jerry McMahan

                Acting Regional Inspector General for Audits

                Office of Inspector General

                U.S. Department of Commerce
                401 \Nest Peachtree St., N.V\!. - Suite 2742

                Atlanta, Georgia 30308


                             Re:   Audit Report No. ATL-14299-1-XXXX

                Dear Mr. McMahan,

                      This letter is in response to the Executive Summary dated July 2001.. I
               agree that MAEDS did not request an extension from EDA for the continued use
               of the $265,250 in un-disbursed grant funds. This was definitely an oversight on
               our   part.                                     "                         .


                       Limited Prospects:        We have several prospects needing funds at
               this time. The request for funds continues to run in cycles. We cannot predict
               the number or the amount of requests we will receive on an annual basis. At this
               time we have five prospects needing a total of $800,000 in funding. MAEDS
               currently has $327,000 available. This does not include the undisbursed funds
               from EDA. The prospects include the following:

                                                                               $100,000
,"                                                                             $ 75,000
                                                                               $ 25,000
                                                                               $100,000
                                                                               $500,000

                       The curre nt unemployment rate for Ottawa coun ty
                                 .
                                                                                   ~
               figure will increase significantly with the announcement . of~
               closing in mid September unemploying an additional 150 people. We are also in
               the process of developing an industrial park located in northeast Miami. MAEDS
               has constructed a 50,000 square foot building at this site. Discovery Plastics has
               con$tructed a 33,000 square foot building and started production in mid July.
               This is a 158-acre site and has the possibility of housing facilities that will employ
                                                                                      . ... -:;'~,-:-': ~-(":~f)l
                                                                                                        .                  I
                                                                                              ..   . , " .j (     ,f ' 1   !
                                                                                              ,.'.:.,.. ! ..' '.dJ.        !
                                                                                                                           J

                                                                                                                           !
                                                                                                                                   '   ..


      .. ...
                                                                                               APPENDIX I
                                                                                                Page 2 of2

            up to 1500 people. We project needing the EDA funds for current and future
            prospects locating in this industrial park.

                   RLFReports:          The RLF reportsfor September 30,2000 and March
            31,2001 have been submitted- They are not on the new software- We are still
            encountering problems With the software and hope to have that resolved before
            the next report is due- We have been submitting these reports for the past
            twelve years and have never been late until the new software program was
            required. I hope you will take this into consideration.

                   We appreciate the opportunity to respond to this audit and ask your
            consideration irl extending the draw down period for the recapitalization grant.

                   If you have any questions, please contact me a 1-800-256-0401.

            Sincerely,



            ~~
            Judee Snodderly
            Executive Director

            cc:    Pedro Garza, Regional Director




                                                                                                        - - - - -.--------­

---_..--­
